No. _20-5523

IN THE

SUPREME COURT OF THE UNITED STATES

BRIAN SURG PETITIONER
(Your Name)
vs.
¢, War — RESPONDENT(S)

PROOF OF SERVICE

I, Brian Nure , do swear or declare that on this date,
tober 26 ______, 2022, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETZION FoR AEWCARING JWRET OF CERLORARL on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:
Ohio Solicitor General
20 £AS+ Brood Atreet , 174 Zloor
Columbus, CH 43215

I declare under penalty of perjury that the foregoing is true and correct.

Executed on _Otloher 26, 20. <O
(Signatm)

10.
